audit report



Return
    to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the White Pine County Sheriff's Department Ely, Nevada
GR-90-99-019
May 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the White Pine County Sheriff's Department (WPC), Nevada.  The WPC received a grant of $479,142 to hire 5 deputy sheriffs under the Universal Hiring Program (UHP).  In addition, the WPC received $250,000 to redeploy 8.3 deputy sheriff full time equivalents (FTEs) into community policing under the Making Officer Redeployment Effective program (MORE 96).  The purpose of the additional officers under each of the grant programs is to enhance community policing efforts.

	In brief, the most significant findings were:

The WPC supplanted the operating budgets for fiscal year (FY) 1999 with COPS grant funds.  The deputy sheriff staffing level fell below the WPC's baseline deputy sheriff staffing by 2 in FY 1999.  The WPC had been reimbursed for the supplanted deputy sheriff positions resulting in questioned costs of $40,260 (federal share).  All future payments should be withheld until the WPC restores its baseline level of 23 deputy sheriffs.  If the WPC cannot restore the baseline of 23 county funded deputy sheriffs, the remaining grant award ($85,676) should be deobligated and the funds put to better use.

	The WPC did not have an adequate plan to demonstrate and document redeployment of 8.3 FTEs into community policing activities for the MORE 96 grant.  If the WPC cannot develop an adequate plan to demonstrate and document redeployment, the grant award ($250,000) should be deobligated and the funds be put to better use.

	Because the WPC supplanted its FY 1999 operating budgets with COPS funds, they did not enhance community policing activities with the number of deputy sheriffs equal to the number of COPS grant funded officers.

	The WPC generally was not in compliance with grant reporting requirements.  The Department Initial Report understated the number of deputy sheriffs in the Sheriff's Department.  The 1996 UHP grant Officer Progress Report was not submitted timely.  In addition, five Financial Status Reports (FSRs) for the UHP grant and seven FSRs for the MORE 96 grant were submitted late.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.